Office of Inspector General
Audit Report




            SUPERFUND


  Region 1's Implementation of
Superfund Administrative Reforms
          E1SFF7-01-0036-8100254
            September 29, 1998
Inspector General Division   Eastern Audit Division
Conducting the Audit:        Boston, Massachusetts

Region Covered:              Region 1

Program Offices Involved:    Office of Site Remediation & Restoration
                             Office of Environmental Stewardship
                                        September 29, 1998




MEMORANDUM
SUBJECT:     Audit of Region 1's Implementation of Superfund
             Administrative Reforms
             Audit Report No. E1SFF7-01-0036-8100254
FROM:        Paul D. McKechnie /s/
             Divisional Inspector General
             Eastern Audit Division
TO:          John P. DeVillars
             Regional Administrator
             EPA - Region 1 - New England




       Attached is our audit report, Region 1's Implementation of Superfund Administrative Reforms.
While this report was based upon a review of Region 1 activities, its conclusions and
recommendations are important to both Region 1 and Headquarters.

       This audit report represents the opinion of the OIG. Final determinations on matters in this
audit report will be made by EPA managers in accordance with established EPA audit resolution
procedures. Accordingly, the findings contained in this audit report do not necessarily represent the
final EPA position.

       In this particular audit, the OIG did not measure the audited offices’ performance against the
standards established by the National Contingency Plan (NCP). The findings contained in this audit
report are not binding in any enforcement proceeding brought by EPA or the Department of Justice
under section 107 of the Comprehensive Environmental Response, Compensation, and Liability Act
(CERCLA) to recover costs incurred not inconsistent with the NCP.

      ACTION REQUIRED

        In accordance with EPA Order 2750, you as the action official are required to provide this
office a written response to the audit report within 90 days. Your response should address all
recommendations, and include milestone dates for corrective actions planned, but not completed.
      We have no objection to the release of this report to the public.

     Should you or your staff have any questions about this report, please contact Linda Fuller,
Team Leader at (617) 565-3160.

Attachment

Distribution: Appendix 3
                                                                   Region 1's Superfund
                                                                 Administrative Reforms




                   EXECUTIVE SUMMARY
PURPOSE                Superfund critics often asked “Why does it take so long and
                       cost so much?” As a result, the Agency has been
                       continually seeking ways to make the Superfund process
                       faster, fairer and more effective. We analyzed some of the
                       actions taken by the Agency in order to answer the following
                       questions:

                       •     Has Region 1 been consistently implementing
                             reforms at sites when appropriate?

                       •     Is the use of presumptive remedies expediting the
                             cleanup process?

                       •     Can the impact of Superfund reforms be measured?


RESULTS IN BRIEF       Region 1's use of various Superfund reforms helped achieve
                       the Agency’s goals to improve the equity and effectiveness
                       of the Superfund process. However, we were unable to
                       document an overall improvement in expediting the
                       Superfund process from listing on the National Priorities List
                       (NPL) to construction completion (pipeline). Prior to the
                       initiation of Superfund reforms, Region 1 sites took an
                       average of seven years and two months to reach
                       construction completion. Afterwards, the average time
                       increased to nine years and 11 months. We found there
                       were tradeoffs in implementing the reforms. Improved equity
                       or community buy-in may come with the price of additional
                       time spent in the pipeline. Such additional time may or may
                       not equate to increased costs. Evaluating and measuring
                       the impact reforms had on the cleanup process was not
                       required of the Region. We found that Regional staff had
                       ideas and suggestions about the impact reforms had in the
                       process. In our opinion, capturing these ideas and
                       suggestions to measure which reforms had a positive or
                       negative effect on the entire cleanup process would allow
                       the Agency to make better informed decisions regarding the

                                                               E1SFF7-01-0036-8100254
                                    i
                                           Region 1's Superfund
                                         Administrative Reforms



value of the reforms. We believe the Region and
Headquarters should coordinate an effort to measure reform
performance. Such measurements should carefully examine
how reforms promoting equity and effectiveness have
impacted attaining the goal of expediting the cleanup
process. Based on our review, we believe the goal to
expedite the cleanup process has not been achieved. The
regions can provide the practical knowledge that comes
from implementing the reforms and provide suggestions to
further improve the goals of providing a faster, fairer and
more effective Superfund program.

Region 1 Actively Implemented Reforms

Region 1 successfully piloted and implemented various
Superfund reforms. Benefits such as increased equity, cost
savings, and community buy-in were achieved. Region 1
was one of the few regions to aggressively implement the
Updating Remedy reform, saving $75 million at 11 sites.
Use of enforcement reforms such as de minimis, mixed
funding, orphan share, and alternative dispute resolution
(ADR) provided greater equity to the Superfund process. In
one case, the use of a Community Advisory Group, another
reform, resulted in not only community consensus but also a
significant cost savings of approximately $45 million by the
adoption of a new remedy. However, these successes also
came with a price. It took five years for the Community
Advisory Group to reach consensus. Enforcement reforms
in particular required greater detailed information and
documentation, thus increasing the amount of time a site
spent in the pipeline. Based on their experience, Regional
enforcement staff provided suggestions to prevent delays in
implementing enforcement reforms.

Region 1 Needs to Assess the Impact of Presumptive
Remedies on the Cleanup Process

Presumptive remedies were developed to streamline the
Remedial Investigation/Feasibility Study (RI/FS) process,
thus saving time and costs. We found, however, that this
reform did not always expedite the Superfund process as


                                        E1SFF7-01-0036-8100254
            ii
                                                               Region 1's Superfund
                                                             Administrative Reforms



                    envisioned. Remedial Project Managers (RPMs) believed
                    the use of presumptive remedies provided a more focused
                    RI/FS and promoted consistency. However, the RI/FS
                    phase for most sites using this reform took longer than the
                    18 month completion goal set by Headquarters. The
                    Agency had not developed a plan to evaluate the use of this
                    reform. As a result, there was no assurance that the use of
                    presumptive remedies actually saved time or money.
                    Additionally, the RPMs said they were unable to quantify
                    time or cost savings which they believed resulted from the
                    use of the reform. Without formal measurements and
                    evaluations, it is difficult to identify why the time savings
                    were not realized so that appropriate corrections can be
                    made.


RECOMMENDATIONS     We recommend that you instruct the Regional enforcement
                    staff to work with Headquarters Office of Enforcement &
                    Compliance Assurance (OECA) staff to determine the
                    feasibility of implementing Regional recommendations which
                    could help to expedite the Superfund enforcement process.

                    We also recommend that you instruct your Office of Site
                    Remediation & Restoration staff develop an evaluation plan
                    to determine if the use of presumptive remedies is achieving
                    its desired results. This evaluation should be coordinated
                    with Headquarters as part of its analysis of Superfund
                    Reforms to measure the qualitative and quantitative impacts
                    on the cleanup process.


REGION 1 COMMENTS   Region 1 was pleased to note that the audit findings
                    confirmed that the Region used reforms and contributed to
                    the Agency’s goals of improving equity and effectiveness in
                    program implementation. However, the Region did not
                    believe the OIG used the appropriate analysis to determine
                    if the reforms were expediting the process. Region 1 along
                    with Headquarters program staff provided written comments
                    to our August 20, 1998 draft report. Their responses have
                    been summarized at the end of Chapters 2, 3, and 4. The


                                                            E1SFF7-01-0036-8100254
                                iii
                                       Region 1's Superfund
                                     Administrative Reforms



complete Regional and Headquarters responses have been
included as Appendices 1 and 2. An exit conference was
held with Region 1 officials on September 23, 1998.




                                    E1SFF7-01-0036-8100254
           iv
                                                                                                             Region 1's Superfund
                                                                                                           Administrative Reforms




                                TABLE OF CONTENTS
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTERS

1.       INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
              Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2.       REGION 1 ACTIVELY IMPLEMENTED REFORMS . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
              Region 1 Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
              Headquarters Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

3.       EPA NEEDS TO ASSESS THE IMPACT OF
         PRESUMPTIVE REMEDIES ON THE CLEANUP PROCESS . . . . . . . . . . . . . . . . . 19
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
              Region 1 Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
              Headquarters Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

4.       REFORMS’ IMPACT NOT FULLY MEASURED . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
             Headquarters Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
             OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDICES

1.       REGIONAL RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

2.       HEADQUARTERS RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

3.       DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49


                                                                                                         E1SFF7-01-0036-8100254
                                                                  v
                                          Region 1's Superfund
                                        Administrative Reforms




[This page intentionally left blank]




                                       E1SFF7-01-0036-8100254
                                                                    Region 1's Superfund
                                                                  Administrative Reforms




                         ABBREVIATIONS
ADR             Alternative Dispute Resolution

CCL             Construction Completion List

CERCLA          Comprehensive Environmental Response Compensation and Liability
                Act

CERCLIS         Comprehensive Environmental Response Compensation Liability
                Information System

EAD             Eastern Audit Division

EE/CA     Engineering Evaluation/Cost Analysis

EPA             U.S. Environmental Protection Agency

FMFIA           Federal Managers’ Financial Integrity Act

HAD             Headquarters Audit Division

IMC             Information Management Coordinator

NPL             National Priorities List

OECA            Office of Enforcement and Compliance Assurance

OIG             Office of Inspector General

OSRE            Office of Site Remediation Enforcement

OU              Operable Unit

PCB             Polychlorinated Biphenyls

PRP             Potential Responsible Party

RD/RA           Remedial Design/Remedial Action

                                                                 E1SFF7-01-0036-8100254
                                           vii
                                                           Region 1's Superfund
                                                         Administrative Reforms



RI/FS   Remedial Investigation/Feasibility Study

ROD     Record of Decision

RPM     Remedial Project Manager

SACM    Superfund Accelerated Cleanup Model

SARA    Superfund Amendments and Reauthorization Act of 1986

TAG     Technical Assistance Grant




                                                        E1SFF7-01-0036-8100254
                                 viii
                                                         Region 1's Superfund
                                                       Administrative Reforms




             CHAPTER 1
             INTRODUCTION
PURPOSE      The Superfund program has often been criticized as being
             unfair, too expensive and taking too long. The
             Environmental Protection Agency (EPA) developed
             Superfund reforms to address that criticism. The Office of
             Inspector General conducted an audit of Region 1's
             Superfund administrative reforms.

             The objectives of our audit were to answer the following
             questions:

             •     Has Region 1 been consistently implementing
                   reforms at sites when appropriate? (See Chapter 2)

             •     Is the use of presumptive remedies expediting the
                   cleanup process? (See Chapter 3)

             •     How well did Region 1 measure the impact of
                   Superfund reforms? (See Chapter 4)


BACKGROUND   In 1980 Congress passed the Comprehensive
             Environmental Response, Compensation, and Liability Act
             (CERCLA), commonly known as Superfund, to clean up
             highly contaminated hazardous waste sites.

             In the past, the Superfund program had been criticized
             because of the pace and the cost of cleaning up hazardous
             waste sites, the extent to which these sites were cleaned,
             the fairness of EPA’s approach for holding waste
             contributors liable for cleaning up sites, and the role of
             States and communities in the cleanup process.

             In response to criticism, the Administration committed to
             make clean up of toxic waste sites faster, fairer, and more
             efficient. Thus, began three rounds of Superfund


                                                     E1SFF7-01-0036-8100254
                          1
                                                         Region 1's Superfund
                                                       Administrative Reforms



              administrative reforms. The reforms consisted of various
              initiatives and pilots that were implemented by the regions.
              In June 1993, the Agency announced the first round of
              administrative improvements. These administrative reforms
              were designed to improve the pace, cost and fairness of the
              Superfund program and expand the public involvement.
              Round one consisted of 17 reforms, nine new initiatives and
              eight continuing initiatives.

              The second round of reforms was announced in February
              1995. Round two consisted of 12 administrative reforms
              which focused on the following areas: enforcement,
              economic development, community involvement and
              outreach, environmental justice, consistent program
              implementation and State empowerment.

              In October 1995, EPA announced the third and final round
              of reforms. This round consisted of 20 reforms designed to
              make cost-effective clean up choices that protect public
              health and the environment, reduced litigation and
              transaction cost, and insured that States and communities
              were more informed and involved in clean up decisions.

              To complement and expand upon the national reforms
              announced by EPA, Region 1 outlined six Superfund
              initiatives on February 21, 1995. The goals of these
              initiatives were to promote faster cleanups and quicker,
              fairer settlements.


SCOPE AND     We performed our audit in accordance with Government
METHODOLOGY   Auditing Standards (1994 Revision) issued by the
              Comptroller General of the United States for program audits
              with the exception of the field work standard on
              management controls. We did not assess the validity and
              reliability of Comprehensive Environmental Response,
              Compensation, and Liability Information System (CERCLIS)
              data or system controls.

              We conducted our survey fieldwork from June 1997 to
              March 1998. The audit phase was performed from March

                                                      E1SFF7-01-0036-8100254
                           2
                                                          Region 1's Superfund
                                                        Administrative Reforms



               1998 to June 1998. As part of our evaluation, we reviewed
               Region 1's Fiscal Year (FY) 1995 and 1996 Federal
               Managers’ Financial Integrity Act (FMFIA) Assurance
               Letters. These reports did not identify any material
               weaknesses or vulnerabilities pertaining to Superfund
               reforms.


Survey Phase   We evaluated five reforms utilized by Region 1 that were
               announced on February 1, 1995. These included:

                     •      Updating Remedy
                     •      Small Parties
                     •      Innovative Technologies
                     •      Community Empowerment
                     •      Alternatives to Superfund Listing

               We interviewed regional personnel including the Region 1
               Ombudsman Site Assessment Manager, Updating
               Remedies Project Officer, Superfund Community
               Involvement Team Leader, Chief of the Superfund Legal
               Office, and Remedial Project Managers.

               In addition, we obtained and reviewed EPA guidance,
               directives, and orders, information from the EPA Internet
               site, CERCLA, Superfund Amendments and Reauthorization
               Act (SARA), rounds one, two, and three of the Superfund
               reforms, regional policies on regional reform initiatives,
               round one closeout report, Superfund Annual Reforms
               Reports for FY 1996 and 1997, and General Accounting
               Office (GAO) reports.

               We also obtained and analyzed CERCLIS data, which
               contained dates for designation to the NPL and construction
               completions.

               Finally, we judgmentally reviewed five Superfund sites which
               used round one reforms, to determine if reforms streamlined
               and expedited the Superfund cleanup process. We used
               selection criteria such as: a high number of reforms used at


                                                      E1SFF7-01-0036-8100254
                           3
                                                         Region 1's Superfund
                                                       Administrative Reforms



              a site, sites from different States, and sites that used
              reforms we had not already selected. These sites included:

                    •      Parker Landfill
                    •      South Municipal Water Supply Well
                    •      Saco Municipal Landfill
                    •      Bennington Landfill
                    •      Norwood PCB

              For each of these sites, we reviewed files at the EPA
              Superfund Records Center to obtain site information. This
              information included Records of Decision (RODs), fact
              sheets, consent decrees, engineering evaluation/cost
              analysis (EE/CA), RI/FSs, non time critical actions (NTCRA)
              and explanations of significant differences (ESD). We also
              interviewed the RPM for each site to determine their
              methodology for selecting reforms, evaluating success of
              reforms, and documenting cost and time savings as a result
              of reforms.


Audit Phase   To determine if Region 1 had been consistently
              implementing reforms where appropriate, we judgmentally
              selected nine sites from the listing on the NPL. In our
              selection criteria we excluded those sites that used round 1
              reforms, and sites where construction was completed before
              June 1993. We reviewed ROD information, and fact sheets
              from the EPA Superfund Records Center. In addition, we
              interviewed the RPMs to determine which reforms were
              used (if any).

              To determine if presumptive remedies expedited the cleanup
              process, we analyzed and reviewed ROD information, and
              fact sheets from the EPA Superfund Records Center, and
              CERCLIS data pertaining to the site. We interviewed RPMs
              to determine why the RI/FS took longer than 18 months.

              To determine how enforcement reforms impacted the time a
              site spends in the Superfund process, we interviewed
              Regional as well as Headquarters staff and reviewed the
              OIG Headquarters Audit Division (HAD) memorandum on

                                                     E1SFF7-01-0036-8100254
                          4
                                                           Region 1's Superfund
                                                         Administrative Reforms



              the Remedial Design/ Remedial Action (RD/RA) (Report No.
              8400015).

              In order to determine how long a site was in the Superfund
              process, we subtracted the date a site was listed on the NPL
              from the date it was listed on the construction completion
              report in CERCLIS.

              Finally, we compared the three rounds of reforms to
              CERCLA to determine if the reforms significantly deviated
              from current law. From this review, we determined that 13 of
              49 reforms closely mirrored the language of the existing law.
              Further, we reviewed and compared the definition and goals
              of the reforms to the applicable sections of CERCLA.


PRIOR AUDIT   The Eastern Audit Division (EAD) issued a Special Review
COVERAGE      of Region 1's Superfund Revitalization Enforcement Pilot
              Projects (Report No. 4700001, dated December 21, 1993).
              We reported that Region 1 Superfund staff had effectively
              carried out the goals and objectives of their pilot projects.
              We recommended improved communications with
              Headquarters regarding pilot status. EAD also issued a
              Special Review of Superfund Revitalization Office (SRO)
              Administration of Enforcement Pilot Projects (Report No.
              4400037, dated March 9, 1994). We reported that the
              regions and Headquarters needed to develop an active
              partnership by sharing more information.

              As previously noted, HAD issued its March 27, 1998
              memorandum, “RD/RA Negotiation Time Frames” (Report
              No. 8400015). HAD analyzed overall trends in the length of
              nationwide RD/RA negotiation time frames and whether
              Superfund enforcement reforms affected the length of
              negotiations. HAD found that RD/RA negotiating time
              frames were longer, cumulatively, during the three years
              following the introduction of reforms than in the prior period.




                                                        E1SFF7-01-0036-8100254
                           5
                                          Region 1's Superfund
                                        Administrative Reforms




[This page intentionally left blank]




                                       E1SFF7-01-0036-8100254
                                                                        Region 1's Superfund
                                                                      Administrative Reforms




                            CHAPTER 2
      REGION 1 ACTIVELY IMPLEMENTED REFORMS
                            Region 1 actively piloted and implemented various
                            Superfund administrative reforms in such categories as
                            cleanups, enforcement, and community relations.
                            Headquarters staff singled out Region 1 as a leader in
                            implementing alternative dispute resolutions (ADR) and
                            updating remedies reforms. For updating remedies, Region
                            1 documented a cost savings of $75 million for 11 sites.
                            Region 1's success was due to viewing the reforms as a way
                            of doing business and setting priorities for carrying out
                            certain reforms. However, while reforms may have improved
                            equity or Agency processes, reforms did not appear to
                            expedite the Superfund process in general. In fact, some
                            reforms added time to the process.


Results of Sample           Our sampling of sites showed that Region 1 was
                            consistently implementing the reforms. For instances when
                            reforms were not used, the Regional staff provided
                            reasonable explanations. Some examples of Region 1's
                            successful implementation of reforms follow.


Updated Remedy (Cleanups)   Region 1 was one of the few regions to aggressively
Reduced Cleanup Cost        implement the reform to update Records of Decisions
                            (RODs). According to the Region 1 Chief of Remedial &
                            Restoration 1 Branch, the goal of this initiative was to
                            encourage Regions to systematically identify and revisit
                            remedy decisions at sites where significant new scientific
                            information would achieve the current level of environmental
                            protection in a more cost effective manner. In order to
                            achieve this objective, a 100 percent review of Region 1's
                            RODs was undertaken regardless of their dollar amounts.
                            As a result, Region 1 claimed to have reduced cleanup
                            costs by $75 million at 11 sites while ensuring the protection
                            of public health and the environment.


                                                                     E1SFF7-01-0036-8100254
                                         7
                                                                      Region 1's Superfund
                                                                    Administrative Reforms



                           One of the 11 sites was Norwood PCB. According to the
                           Agency, the updated remedy saved approximately $45
                           million. Dramatic increases in the price of the original
                           solvent extraction remedy, space constraints, and safety
                           issues were some of the reasons given for updating the
                           remedy.

                           Although Regional personnel documented estimated cost
                           savings for updated remedies, there was a lack of specific
                           national guidance on how cost savings should be
                           calculated. This resulted in a lack of Regional consistency
                           in the computation of cost savings because the method used
                           to calculate these costs were at each RPM’s discretion.
                           Nationwide, computations for cost savings were left to the
                           discretion of Regional staff. Inconsistent measures for
                           calculating cost differences may not portray accurate cost
                           savings for this remedy. Providing an established method
                           for cost savings would also assist RPMs. RPMs would not
                           have to spend time determining which method to use.


De Minimis Enforcement     Region 1 implemented various enforcement reforms such as
Reform Fully Implemented   de minimis settlements, mixed funding, orphan share, and
                           alternative dispute resolution (ADR). The Director of the
                           Policy and Program Evaluation Division, Office of Site
                           Remediation Enforcement (OSRE), OECA stated that
                           Region 1 was a leader in the use of ADR. Our review
                           concentrated on the Region’s use of de minimis settlements.

                           Region 1 offered de minimis settlements to 77 parties at five
                           sites. According to Region 1 staff, offering de minimis
                           settlements had evolved into a way of doing business and
                           was no longer considered a separate reform. Part of the
                           objective of the reform was to enter into de minimis
                           settlements early in the enforcement process. This allowed
                           Potential Responsible Parties (PRPs) who contributed
                           minimal amounts of waste to a site to avoid the transaction
                           and other legal costs they would otherwise incur by
                           continuing in the litigation or waiting until a later time to
                           settle.


                                                                   E1SFF7-01-0036-8100254
                                        8
                                            Region 1's Superfund
                                          Administrative Reforms



The Region established goals for the number of de minimis
settlements they wanted to make each year and reported
their status to Headquarters. According to Region 1's Chief
of the Superfund Legal Office, he was unaware of any other
Region that had undertaken a broader initiative aimed
specifically at small parties. For example, Region 1 used
“plain English” correspondence, created a small parties
hotline, and accumulated relevant guidance on de minimis
settlement for Regional personnel.

Use of enforcement reforms provided greater fairness to
PRPs. However, at times, RPMs cited these reforms as the
reason for delays in the cleanup process. The Director of
the Policy and Program Evaluation Division, OSRE, OECA
advised us that enforcement reforms were aimed at
improving equity, not timeliness. Both the Director and
Regional staff acknowledged that enforcement reforms may
increase the amount of time a site spends in the pipeline.

Regional enforcement staff described some of the problems
which can contribute to inhibiting a timely de minimis
settlement. These problems included: assembling complete
waste information, devising a fair cutoff for de minimis at
small quantity sites, and setting a fair settlement amount.
The Regional staff added that PRPs with a larger
involvement at the site may fear they will be the only ones
left after a de minimis settlement and the final remedy will
turn out to be more expensive than originally estimated. To
guard against that possibility, the price to settle may be set
so high that the very small parties will be priced out of the
settlement.

According to the Regional enforcement staff, deadlines
required by law are impossible to meet unless there is (1)
good waste information, (2) a small number of PRPs are
involved, and (3) most of the PRPs are knowledgeable
about CERCLA and have the financial ability to settle with
EPA. However, those ideal circumstances usually do not
exist. Deadlines required by law do not allow enough time
for the PRPs to resolve differences among themselves so as
to form a cohesive group which can then negotiate a final


                                         E1SFF7-01-0036-8100254
             9
                                           Region 1's Superfund
                                         Administrative Reforms



deal with EPA. Often there are defunct or insolvent parties
at sites who cannot contribute to the cost of cleanup. To
address this problem, the Regional enforcement staff
suggested that the Agency identify orphan share as early as
possible, preferably at the RI/FS phase. (Orphan share is
the share belonging to the defunct or insolvent parties. EPA
may agree to compensate performing parties a limited
portion of the orphan share.) The Regional staff believed
this would help the PRPs to get a better understanding of
the potential universe of costs and to form that cohesive
group which could then deal with EPA.

Developing allocations was cited as another delaying factor.
In a written response to our questions, the Regional
enforcement staff stated:

      Implementation of reforms relating to allocations can
      have the affect [sic] of slowing the process.
      Gathering waste volume information, preparing it for
      effective presentation to PRP groups and negotiating
      with PRPs to reach consensus on the details of the
      allocation for each party in a large group is a
      cumbersome and very time consuming process.
      Pursuing allocations at landfill sites is perhaps the
      most difficult due to incomplete data or lack of
      information on the disposal practices of the PRPS
      [sic] over long periods of time. Poor quality or
      insufficient data hampers efforts to determine and
      defend deminimis [sic] settlements with the smaller
      PRPs.

In instances where data is not complete for de minimis or
allocations, the Regional enforcement staff suggested that
the Agency develop standard presumptions to apply so that
these reforms can be used without unnecessarily delaying
the process. They believed orphan share and mixed
funding provided time savings and created a favorable
settlement climate.

Some other suggestions offered by the Regional
enforcement staff to Headquarters included: (1) making


                                       E1SFF7-01-0036-8100254
            10
                                                                            Region 1's Superfund
                                                                          Administrative Reforms



                                orphan share available to cash out situations and
                                owners/operators, at least in some situations (e.g.,
                                municipalities who own part of a site but are not culpable),
                                and revise the limitations that presently exist and (2)
                                becoming more proactive in acting as a national center to
                                which regions can refer and learn how other regions are
                                dealing with the reforms.


RD/RA Negotiations Were Delays resulting from implementation of enforcement
Taking Longer                 reforms were not unique to Region 1. During assistance
                              and advisory work done for the Agency at Headquarters, the
                              OIG analyzed overall trends in the length of nationwide
                              remedial design/remedial action (RD/RA) negotiation time
                              frames for fiscal years 1990 - 1996 (RD/RA Negotiation
                              Time Frames, March 27, 1998). The OIG analyzed whether
                              Superfund enforcement reforms affected the length of
                              negotiations. The OIG wanted to pinpoint the effect of major
                              policy changes. One of the major policy changes the report
                              noted that coincided with changes in the time frames for
                              RD/RA negotiations was the advent of the Superfund
                              reforms. In order to judge the effect of the Superfund
                              reforms on the length of RD/RA negotiations, the analysts
                              compared the length of negotiation time frames during a
                              three year time period just before (fiscal years 1990 - 1992)
                              and a three year time period immediately after (fiscal years
                              1994 - 1996) the start of the Superfund reforms, skipping the
                              year (fiscal year 1993) in which the reforms were actually
                              implemented. The results showed that RD/RA negotiating
                              time frames were longer, cumulatively, during the three
                              years following the introduction of reforms than in the prior
                              period.


Increased Equity                Another example of reforms which promoted equity but
Can Delay Cleanup               increased time spent on cleanups was community
                                involvement. The primary goal of the various community
                                involvement reforms was to include all affected parties in the
                                decision making process. The Agency believed early
                                community involvement increased the equity of the
                                Superfund program as it related to the people immediately

                                                                         E1SFF7-01-0036-8100254
                                            11
                                             Region 1's Superfund
                                           Administrative Reforms



impacted by the site. In this way, revisions and
amendments to the ROD would not be needed.

According to the Guidance for Community Advisory Groups
at Superfund Sites:

      “While recognizing that providing additional
      opportunities for community involvement may require
      additional time and slow the cleanup process down
      initially, EPA believes this is time well spent, and that
      early and effective community involvement will
      actually save time in the long run.”

According to the Superfund Community Involvement Team
Leader, the reform initiative was measured by whether: (1)
cleanup decisions reflected community input and
involvement, (2) the chosen solution was a consensus
decision of the community, and (3) future reuse was
included in the proposed cleanup options.

Although additional time was needed at two Regional sites,
benefits of reduced costs and community buy in were
derived. At the Pine Street Barge Canal Site, Region 1
presented a plan in 1992 calling for a $50 million remedy at
the site. Since the plan met strong opposition, Region 1 and
the community council agreed to look at a new, less costly
and less intrusive alternative. As a result, five years passed
before a new plan was proposed. In May 1998 the remedy
was estimated to cost $4.3 million. If EPA adopts this
remedy, the PRPs voluntarily agree to contribute another $3
million for environmental projects selected by the
community.

Although negotiations with the community council took five
years, existing conditions at the site did not pose an
unacceptable human health risk. In 1992, EPA determined
that it was very unlikely for the contaminants to pose a
threat to human health by being released into the air. The
State of Vermont prohibits the use of contaminated
groundwater beneath the site for drinking water. In 1993, 40
drums containing hazardous waste were removed from the


                                          E1SFF7-01-0036-8100254
            12
                                                                            Region 1's Superfund
                                                                          Administrative Reforms



                           site. Studies continued at the site, but there was no
                           evidence of any further cleanup. An October 1994 progress
                           report stated that “previous studies performed by contractors
                           for the EPA has concluded that there appears to be no
                           human health risk posed by the site.”

                           The Pine Street Barge Canal site received much attention
                           from the Region because it met at least two of the three
                           criteria used to measure community involvement. According
                           to the Cleanup Plan Proposal, the Pine Street site was one
                           of the first sites in the country where a public consensus
                           group had been used to develop and recommend a
                           Superfund remedy.


Reforms Did Not Speed Up   While use of Superfund reforms improved program equity
Construction Completions   and effectiveness, use did not expedite the time a site
                           progressed from listing on the NPL to construction
                           completion. Prior to the announcement of reforms, nine of
                           26 sites (35 percent) reached construction completion. The
                           average time taken for
                           these nine sites was
                           seven years and two               Federal    Time between
                           months. After the                  Fiscal     NPL & CCL
                           announcement of                    Year
                           reforms, the average               1992     6 Yrs. 3 Mos.
                           amount of time taken for
                                                              1993     8 Yrs. 11 Mos.
                           the remaining 17 sites (65
                           percent) to reach                  1994     9 Yrs. 8 Mos.
                           construction completion            1995     10 Yrs. 11 Mos.
                           was nine years and 11
                                                              1996     9 Yrs. 6 Mos.
                           months.
                                                                  1997      9 Yrs. 9 Mos.
                           Even though sites have
                                                               1998         14 Yrs. 4 Mos. *
                           taken longer since              * Only one site construction
                           Superfund reforms were          completed at end of fieldwork for
                           introduced, more sites
                           have been added or will
                           be added to the
                           construction completion list (CCL). There were seven
                           construction completions in fiscal year 1997, compared to

                                                                         E1SFF7-01-0036-8100254
                                        13
                                                              Region 1's Superfund
                                                            Administrative Reforms



                  two construction completions in each of the three previous
                  years. According to the Information Management
                  Coordinator (IMC) in Region 1, there were seven to nine
                  sites projected for construction completion in 1998. The IMC
                  believed the main reason why most of these sites reached
                  construction completion was that they were already in the
                  Superfund process for a period of time. Most of these sites
                  were reaching construction completion because of the way
                  they fell in the pipeline. After further inquiry of Superfund
                  Branch Chiefs, the IMC reported that reforms played a minor
                  role in sites reaching construction completion.


CONCLUSION        The Region had been actively implementing reforms. These
                  reforms provided cost savings and greater equity to the
                  Superfund process. However, the Superfund process was
                  not expedited by the set of reforms we examined in Region
                  1. The average time a site reached the construction
                  completion list increased from seven years and two months
                  to nine years and 11 months since the initiation of the
                  Superfund reforms. Enforcement reforms especially could
                  delay the process. However, Regional enforcement staff
                  provided suggestions to address this problem (See pages
                  10 and 11). We believe the Regional enforcement staff’s
                  suggestions show promise. A further evaluation of
                  suggestions with Headquarters should be performed to
                  determine their feasibility.


RECOMMENDATIONS   We recommend that you instruct your enforcement staff
                  work with Headquarters staff to determine the feasibility of
                  implementing Regional suggestions which could help to
                  expedite the Superfund enforcement process.




                                                           E1SFF7-01-0036-8100254
                              14
                                                       Region 1's Superfund
                                                     Administrative Reforms




REGION 1   Region 1 was pleased to receive independent verification
COMMENTS   that Regional staff was using reforms and contributing to the
           Agency’s goals of improving equity and effectiveness in
           Superfund.

           However, Region 1 did not agree with the OIG’s conclusion
           related to expediting the cleanup process. Region 1 did not
           believe it was appropriate to evaluate time lines at sites
           where work was initiated many years prior to the
           announcement of the reforms. In their opinion, calculation
           should begin at the point in time that a particular reform was
           applied to a specific cleanup phase of the sites.

           On the issue of inconsistent cost estimate calculations,
           Region 1 wrote:

                 The OIG comments relative to updating remedies
                 indicate that there is a lack of regional consistency in
                 how savings were calculated. Each remedy may vary
                 slightly in the method used to calculate savings due
                 to differences in the nature of the site and remedy.
                 However, each cost saving calculation was consistent
                 to the extent it included an estimate of construction
                 costs (capital costs) saved and Operation and
                 Maintenance (O&M) cost savings in accordance with
                 national guidance. Also, EPA national guidance
                 indicates that the accuracy of remedial action cost
                 estimates in the FS are anticipated to be no better
                 than +50/-30.

           Regarding our recommendation, Region 1 responded:

                 The Regional enforcement staff have been working
                 over the years, both internally and with Headquarters
                 staff, on efforts to expedite the enforcement process.
                 We have been very active in our efforts to improve
                 the enforcement program along the lines suggested
                 and will continue those efforts.




                                                    E1SFF7-01-0036-8100254
                       15
                                                           Region 1's Superfund
                                                         Administrative Reforms




HEADQUARTERS   Headquarters (and Region 1 agreed) believed it
COMMENTS       was too early to see the impact of the reforms on
               construction completions. Headquarters further stated:

                     ... the lengthening of the time frames probably has
                     more to do with program maturity than anything else.
                     The Superfund program was only twelve years old in
                     June 1993, so the average time to reach construction
                     completion by 1993 would have to be significantly
                     less than twelve years. In 1998 the program was 17
                     years old, so the average age could be longer.

                     ... none of the reforms apply to the entire response
                     pipeline, so its doubtful that their impact can be
                     adequately evaluated by looking at the time it takes to
                     go from NPL listing to construction completion. Each
                     of the reforms was designed to addresses (sic) a
                     different aspect of the process.

                     ... the report faults the reforms for not accelerating
                     the pace of cleanup at sites where work had been
                     underway for an average of almost 8 years prior to
                     the reforms.

               Headquarters also commented that citizen groups, law suits,
               political interest, site size and complexity, etc. also impact
               the timeliness of construction completion.

               Headquarters commented that implementing the suggestion
               made by Regional enforcement staff on making orphan
               share available to owners/operators “would conflict with the
               direction we have received from Congress on this issue.”


OIG COMMENTS   In our opinion, using the NPL listing date as our starting
               point is valid because 98 percent of Region 1's NPL sites
               were listed prior to October 1, 1995 (the last round of
               reforms). One of the criticisms the Agency was trying to
               address with the reforms was the slow pace of cleanups.
               Few sites had been removed from the NPL.

                                                        E1SFF7-01-0036-8100254
                           16
                                           Region 1's Superfund
                                         Administrative Reforms



Also, the NPL is a public document. Individuals outside the
Agency can readily review this document to determine how
long a site remains on the list. We believe the Agency has
made great progress in addressing equity and effectiveness
issues. However, Superfund is a long process and in the
opinion of its critics the process must move quicker. We
also believe that expediting the Superfund process still
remains a significant area on which the Agency must focus
more attention. We did attempt to evaluate just one
segment of the Superfund process as it related to one
reform (See Chapter 3). Again in this one instance, we
could not document significant time savings.

Five years have passed since Superfund reforms were first
announced. As we have reported in Chapter 4, many of
these reforms were already a part of the law and not drastic
program departures. In our opinion, sufficient time has
passed for the Agency to start evaluating what it has
accomplished and determining where it wants to head.

Regarding the Region’s comments on the consistency of
cost estimates, conversations with Headquarters staff
indicated that this was a national issue, not a Regional
issue. We included this information for use by
Headquarters and have not made any Regional
recommendations. Our review of a cost estimate prepared
by Region 1 staff showed that it was reasonably prepared
and documented.

Regarding comments on the audit recommendation, our
recommendation is directed at continued communication
between Headquarters and Regional staff on the subject
issues as opposed to support for a particular suggestion.




                                        E1SFF7-01-0036-8100254
            17
                                          Region 1's Superfund
                                        Administrative Reforms




[This page intentionally left blank]




                                       E1SFF7-01-0036-8100254
                                                           Region 1's Superfund
                                                         Administrative Reforms




                CHAPTER 3
      EPA NEEDS TO ASSESS THE IMPACT OF
 PRESUMPTIVE REMEDIES ON THE CLEANUP PROCESS
                We found the use of presumptive remedies had not provided
                all its expected benefits. RPMs believed the use of
                presumptive remedies provided a more focused risk
                assessment and feasibility study which promoted
                consistency. However, the RI/FS phases for most sites
                using presumptive remedies have taken longer than the 18
                month completion goal set by Headquarters. Further, the
                Agency had not developed a plan to evaluate the impact of
                this reform. As a result, there was no assurance that the
                use of presumptive remedies actually expedited the process
                and saved time or money. Additionally, the RPMs said they
                were unable to quantify time or cost savings which they
                believed resulted from the use of the reform.


Background      The Agency’s Superfund program had been criticized by
                Congress and the public for taking too long to decide upon
                remedies at sites and for the slow pace of achieving
                cleanups.

                In 1991, the Agency began efforts to standardize parts of
                the remedy selection process and increased efforts to take
                advantage of experience at sites across the country. The
                Agency believed that the process of site characterization,
                evaluating the feasibility of cleanup options, and design may
                have been unnecessarily complex, site-specific and lengthy.
                EPA believed new efforts could save time and money and
                would increase national consistency of the Superfund
                program.

                The objective of the presumptive remedies initiative was to
                use the program’s past experience to streamline site
                investigation and speed up the selection of cleanup actions.
                Over time presumptive remedies were expected to ensure

                                                        E1SFF7-01-0036-8100254
                            19
                                                       Region 1's Superfund
                                                     Administrative Reforms



           consistency in remedy selection and reduce the cost and
           time required to clean up similar types of sites.

           Presumptive remedies were expected to have several
           benefits. They limited the number of technologies
           considered, which should promote a more focused data
           collection, resulting in streamlined site assessments and
           accelerated remedy selection decisions which achieve time
           and cost savings.

           Presumptive remedies were tools to help site managers to
           focus data collection efforts during the site investigation
           (e.g., remedial investigations, removal site evaluation) and
           significantly reduce the technology evaluation phase (e.g.,
           Engineering Evaluation/Cost Analysis (EE/CA) and/or
           Feasibility Study (FS)) for certain site categories.

           EPA developed various presumptive remedies for such site
           types as volatile organic compounds (VOCs) in soils, wood
           treaters, municipal landfills, and contaminated ground water.
           We focused on the municipal landfill presumptive remedy
           because it was easy to identify this site type by simply
           reading the name of the site (e.g. Town/City Name Municipal
           Landfill) on the NPL.

           The Superfund Program Implementation Manual for Fiscal
           Year 1994 defined an RI/FS as “an investigation designed to
           characterize the site, assess the nature and extent of the
           contamination, evaluate potential risk to human health and
           the environment, and develop and evaluate potential
           remediation alternatives.” It also defined an Operable Unit
           (OU) as “the division of a project into meaningful work
           elements (events) that can be implemented on different
           schedules, resulting in acceleration of cleanups .” A site
           can have more than one OU, each with its own RI/FS.


Criteria   EPA Directive No. 9355.0-49 FS issued September 1993 for
           Presumptive Remedy for CERCLA Municipal Landfill states
           that:


                                                    E1SFF7-01-0036-8100254
                       20
                                                                              Region 1's Superfund
                                                                            Administrative Reforms



                                  the biggest savings in time and money can be
                                  realized if streamlining is incorporated at the
                                  beginning of the RI/FS process . . . this directive
                                  addresses those issues identified during the pilots
                                  and highlights streamlining opportunities to be
                                  considered during the scoping component of the
                                  RI/FS.

                           Headquarters Remedial Action and Contract Section staff
                           stated that the goal to complete an RI/FS was within 18
                           months, but the actual average was two years.


RI/FS Completion Took      For the majority of sites reviewed that used presumptive
Longer Than Agency         remedies, the RI/FS took significantly longer than the
Goal                       Agency goal of 18 months.
                           The Region identified 13 sites
                           which used a presumptive                    Completion of
                           remedy. From CERCLIS, we                      RI/FS Using
                                                                    Presumptive Remedy
                           determined the length of time
                           it took to complete an RI/FS          1 RI/FS $7 years
                           for these sites.                      1 RI/FS $4 years, < 7 years

                                                                     1 RI/FS $3 years, < 4 years
                           For seven sites representing
                           nine RI/FSs where the Region       1 RI/FS $2 years, < 3 years

                           clearly identified an OU as        2 RI/FS $1 year, < 2 years
                           using a presumptive remedy,        1 RI/FS < 1 year
                           we found that six of nine (66.7
                                                              2 RI/FS not completed after
                           percent) took more than two        2 years
                           years to complete the RI/FS.
                           The remaining six of 13 sites
                           represented 18 RI/FSs and
                           were not identified in
                           CERCLIS as using a presumptive remedy. Of the 18
                           RI/FSs, 16 (88.8 percent) took longer than two years to
                           complete.


Municipal Landfill RI/FS   Region 1's use of the municipal landfill presumptive remedy
Not Expedited              did not expedite the RI/FS process. A comparison of sites
                           which used and did not use this presumptive remedy

                                                                          E1SFF7-01-0036-8100254
                                         21
                                                              Region 1's Superfund
                                                            Administrative Reforms



showed no significant difference in the time it took to
complete the RI/FS. RPMs usually attributed other factors
such as weather or legal action as the reason for delays
rather than a problem with implementing the presumptive
remedy.

Of the 13 sites the region identified as using presumptive
remedies, we judgmentally selected five for review. Of the
five sites none of the RI/FSs was accomplished by the
Headquarters goal of 18 months. The RI/FS for two sites
were completed in little more than two years and the other
three were accomplished between four and seven years.


                    NPL SITES REVIEWED THAT USED
                      PRESUMPTIVE REMEDY FOR
                         MUNICIPAL LANDFILLS
                          Time to
           Site          Complete             RPMs Reasons for
          Name             RI/FS               Length of Time
     Old Southington     7 yrs,          Lawsuits, request for additional
     Landfill, CT        20 days         off-site work

     Saco Landfill, ME   2 yrs, 6 mos,   Took no longer than normal
                         25 days

     BFI Sanitary        2 yrs, 1 mo,    Took no longer than normal
     Landfill, VT        28 days

     Bennington          6 yrs, 9 mos    Additional data needed to be
     Landfill, VT        23 days         collected

     Parker Landfill,    4 yrs, 7 mos    Site location in northern VT, &
     VT                  25 days         seasonal time to collect data




Of the five sites reviewed the RI/FSs took from two years,
one month and 28 days to seven years 20 days. Even for
sites which took longer than two years to complete the
RI/FS, the RPMs believed the RI/FS completion time was
reasonable. RPMs believed that there were extenuating
circumstances, such as requests for additional offsite work,
lawsuits by citizens, additional data collection, and site
location which extended the RI/FS.



                                                          E1SFF7-01-0036-8100254
                22
                                                                            Region 1's Superfund
                                                                          Administrative Reforms



                       We reviewed five sites that did not use presumptive remedy.
                       One RI/FS was completed in just over two years, while the
                       others took significantly longer, between four and seven
                       years. This
                       completion time was
                                                                SITES THAT DID NOT
                       similar to those sites               USE PRESUMPTIVE REMEDY
                       which used                    Norwood                      2 yrs, 4 mos,
                       presumptive                   PCB, MA                      8 days

                       remedies for                  Coakley Landfill,            4 yrs, 9 mos,
                       municipal landfills.          NH (OU 1) *                  30 days

                       Two of the reasons            Central Landfill,            7 yrs, 2 mos,
                                                     RI *                         14 days
                       why the RI/FSs were
                       completed in more             Winthrop Landfill,           4 yrs, 1 mos,
                                                     ME                           23 days
                       than two years
                       included: State was           Dover Municipal              7 yrs, 5 mos,
                                                     Landfill, NH                 11 days
                       lead in developing          * Listed by Regional Staff as Using Presumptive
                       RI/FS and significant       Remedy but according to RPMs did not.

                       community
                       involvement resulted
                       in additional work done to alleviate community concerns.


Benefits from Use of   Presumptive remedies provided technical benefits to
Presumptive Remedies   RPMs but it was unclear if time or money was saved. RPMs
                       believed using presumptive remedies allowed them to be
                       more focused during the risk assessment and the feasibility
                       study. However, one RPM believed that time saved during
                       the risk assessment phase was lost during other aspects of
                       the cleanup (i.e. ground water studies, air monitoring,
                       geological studies or enforcement reforms). Another RPM
                       added that a significant amount of time was not saved
                       during the remedial investigation phase. At one site which
                       had already reached construction completion, the decision
                       to write-off further action for ground water restoration was
                       facilitated by using the presumptive remedy for Technical
                       Impracticability of Ground Water Restoration. No RPMs
                       documented or quantified time savings. Only one RPM
                       estimated a cost savings, $2 million in reduced transaction
                       costs in a PRP lead site. However, this estimate was not
                       documented. Due to a lack of documentation, we could not


                                                                        E1SFF7-01-0036-8100254
                                      23
                                                             Region 1's Superfund
                                                           Administrative Reforms



                  verify time or cost savings. At PRP lead sites only the PRP,
                  not EPA, could quantify the cost savings.

                  According to the RPM at the South Municipal Landfill site in
                  New Hampshire, the presumptive remedy for Technical
                  Impracticability of Ground Water Restoration at Superfund
                  Sites was not used because the guidance was not available
                  earlier in the process. However, the RPM was able to use
                  the guidance to support the decision to write-off further
                  action for ground water restoration at this site.


CONCLUSION        The use of presumptive remedies had mixed results in
                  Region 1. The RPMs were finding the process beneficial,
                  but the expected benefits in time and cost savings were not
                  always achieved or documented. EPA Headquarters gave
                  the Regions no criteria to measure the success of the
                  reforms and the Region had not evaluated whether the
                  reforms were achieving their expected benefits. Evaluating
                  the use of the presumptive remedies should help to identify
                  why all the benefits have not been achieved and help to
                  identify corrective action needed.


RECOMMENDATIONS   We recommend that the Office of Site Remediation &
                  Restoration staff develop an evaluation plan to determine if
                  the use of presumptive remedies is achieving its desired
                  results. This evaluation should be coordinated with
                  Headquarters as part of its analysis of Superfund Reforms
                  to measure the qualitative and quantitative impacts on the
                  cleanup process.


REGION 1          Region 1 responded:
COMMENTS
                        Regarding municipal landfills presumptive remedies -
                        The 18 month time period for RI/FS used by the OIG
                        as a basis of comparison is an Agency goal. The
                        study of three landfills conducted by Headquarters in
                        1996 used a national average of 51 months for the
                        RI/FS. Current national data indicate a national

                                                          E1SFF7-01-0036-8100254
                              24
                                                          Region 1's Superfund
                                                        Administrative Reforms



                     average of approximately 36 months. The current
                     national average of approximately 36 months would
                     be a better basis for comparison of the time to
                     complete a presumptive remedy landfill RI/FS versus
                     a conventional RI/FS. While we are striving for a
                     goal, a comparison of the processes as they actually
                     occur in the field is more representative than
                     comparison to a goal.

               The Region then stated that if the average of 36 months was
               used as criteria, four of the seven RI/FSs took less than
               three years which would be good news.


HEADQUARTERS   Headquarters stated:
COMMENTS
                     ... it would be more useful to simply state the average
                     time required to complete the RI/FSs. From the data
                     it appears that the durations have gotten shorter, but
                     not as short as hoped.

               Headquarters also commented that it was unlikely that there
               is a cost effective way to estimate the cost and time savings
               from using presumptive remedies.


OIG            Region 1 makes a good point in showing that 60 percent
COMMENTS       of the seven RI/FSs took less than the nation average.
               However, that still leaves 40 percent which were over the
               average. Also, it is unknown at this time the
               reasonableness of the national average or even of the
               Agency’s goal of 18 months. As a result, we still present
               this finding and the recommendation because we believe
               the Agency should determine a reasonable goal to strive
               towards and measure actual performance against. Without
               such measurements, the Agency cannot determine the
               effectiveness of its procedures.

               Regarding Headquarters comments on the feasibility of
               documenting time and cost savings, we made this comment
               to inform the reader that while such claims were made, we
               could not verify these claims because the necessary
               documentation was not developed.

                                                       E1SFF7-01-0036-8100254
                           25
                                                          Region 1's Superfund
                                                        Administrative Reforms



                     average of approximately 36 months. The current
                     national average of approximately 36 months would
                     be a better basis for comparison of the time to
                     complete a presumptive remedy landfill RI/FS versus
                     a conventional RI/FS. While we are striving for a
                     goal, a comparison of the processes as they actually
                     occur in the field is more representative than
                     comparison to a goal.

               The Region then stated that if the average of 36 months was
               used as criteria, four of the seven RI/FSs took less than
               three years which would be good news.


HEADQUARTERS   Headquarters stated:
COMMENTS
                     ... it would be more useful to simply state the average
                     time required to complete the RI/FSs. From the data
                     it appears that the durations have gotten shorter, but
                     not as short as hoped.

               Headquarters also commented that it was unlikely that there
               is a cost effective way to estimate the cost and time savings
               from using presumptive remedies.


OIG            Region 1 makes a good point in showing that 60 percent
COMMENTS       of the seven RI/FSs took less than the nation average.
               However, that still leaves 40 percent which were over the
               average. Also, it is unknown at this time the
               reasonableness of the national average or even of the
               Agency’s goal of 18 months. As a result, we still present
               this finding and the recommendation because we believe
               the Agency should determine a reasonable goal to strive
               towards and measure actual performance against. Without
               such measurements, the Agency cannot determine the
               effectiveness of its procedures.

               Regarding Headquarters comments on the feasibility of
               documenting time and cost savings, we made this comment
               to inform the reader that while such claims were made, we
               could not verify these claims because the necessary
               documentation was not developed.

                                                       E1SFF7-01-0036-8100254
                           25
                                          Region 1's Superfund
                                        Administrative Reforms




[This page intentionally left blank]




                                       E1SFF7-01-0036-8100254
                                                                 Region 1's Superfund
                                                               Administrative Reforms




                    CHAPTER 4
         REFORMS’ IMPACT NOT FULLY MEASURED
Introduction        Our review was limited to evaluating Region 1's
                    implementation of Superfund reforms. Overall assessment
                    of the reforms is a Headquarters responsibility, and
                    Headquarters should provide guidance to the regions on
                    measuring the impact of the reforms. We provide the
                    following solely for information. No action is required by the
                    Region.


Measuring Reforms   The Agency has not fully measured the impact of reform
                    use. Standardized methods for documenting cost and time
                    savings were not developed for all reforms. Some reforms
                    are difficult to measure because intangible benefits are
                    expected or assumptions must be made on what actions did
                    not happen. Another problem with measuring the impact of
                    the reforms is that some reforms are not significantly
                    different from what was enacted in the law. In such cases, it
                    may be difficult to attribute a reform’s use to being a “reform”
                    or being a mandate. Without an accurate assessment, the
                    success of the reforms cannot be effectively promoted.

                    Regional staff stated that Headquarters had not asked the
                    regions to assess the success of the initiatives and they had
                    not made an evaluation. The Regional staff also believed
                    that since two years had passed, it was an excellent time for
                    Headquarters to reassess the value of the reforms and
                    determine if the reforms were going in the right direction.

                    The RPMs believed certain reforms saved time or money but
                    could not always provide support for their claims because
                    some results cannot be easily measured. As an example,
                    the RPM at the Norwood PCB site believed use of ADR
                    saved time and money because a mediator was able to
                    settle disputes between the PRPs and EPA. However, the
                    RPM said it was difficult to determine and document savings
                    because it was unknown how long litigation would have
                    lasted without ADR.

                                                              E1SFF7-01-0036-8100254
                                 27
                                                                           Region 1's Superfund
                                                                         Administrative Reforms



                               The updating remedies reform saved costs at various sites.
                               However, Headquarters did not provide a standard method
                               to calculate cost savings, leaving each RPM to determine
                               their own method. Such an inconsistency may depict an
                               inaccurate measure of success for this reform.


Reforms Were Interpretations   Many reforms could be directly traced to the Comprehensive
of Existing Law                Environmental Response Compensation and Liability Act
                               (CERCLA). From a review of 49 reforms, 13 were found to
                               mirror the language of the existing law. Nine of the 13
                               reforms (69.2 percent) were further clarifications or
                               interpretations of the existing Superfund law. These reforms
                               implemented approaches already included in the law. For
                               example, de minimis was not fully utilized prior to reforms,
                               even though it was a part of the law [CERCLA § 122(g)].
                               This reform is now used. Another example was community
                               relations. These reforms merely emphasized community
                               involvement during remedy selection, even though the law
                               always required community involvement and was later
                               amended to provide Technical Assistance Grants.


HEADQUARTERS                   Headquarters provided:
COMMENTS
                                     ... this comment seems to imply that 36 of the 49
                                     reforms have no basis in law. If that is the intent of
                                     the report it should be stated explicitly, ... The simple
                                     fact is that EPA believes that all of the reforms have a
                                     basis in law, which is why they are called
                                     ‘Administrative Reforms.’ EPA does not have the
                                     authority to operate outside of its enabling legislation.




                                                                        E1SFF7-01-0036-8100254
                                           28
                                                          Region 1's Superfund
                                                        Administrative Reforms




OIG COMMENTS   It was not the intention of the OIG to imply that any of the
               reforms had no basis in law. The dictionary defines “reform”
               as to amend or improve. Our point was that in some cases,
               we did not see how the Agency amended or improved what
               was already provided for by law. As a result, it would be
               difficult to measure a “reform’s” impact if no discernable
               change had been made.




                                                      E1SFF7-01-0036-8100254
                           29
                                          Region 1's Superfund
                                        Administrative Reforms




[This page intentionally left blank]




                                       E1SFF7-01-0036-8100254
                                                                                 Region 1's Superfund
                                                                               Administrative Reforms




                                  APPENDIX 1
                          REGIONAL COMMENTS
             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   REGION I
               J.F.K. FEDERAL BUILDING, BOSTON, MA. 02203-2211

MEMORANDUM

DATE:         September 17 , 1998

SUBJ: Response to the OIG Draft Audit of Region I’s Implementation of Superfund
      Administrative Reforms - Audit Report No. E1SFF7-01-0036

FROM:         John P. DeVillars /s/
              Regional Administrator
              EPA - Region I - New England

TO:           Paul D. McKechnie
              Divisional Inspector General
              Eastern Audit Division

Thank you for the opportunity to review and comment on the draft audit of Region I’s
Implementation of Superfund Administrative Reforms. The response is presented in four parts:

Part 1 - Summary comments on the overall audit approach and recommendations;
Part II - Specific comments relating to policy implications of the recommendations;
Part III - Specific comments regarding factual accuracy; and
Part IV - Comments on the request for a Plan for Taking Corrective Action.


Part I - Summary comments of the overall audit approach and recommendations

The comments which follow are in response to the Executive Summary section of the report.

EPA response to the Purpose of the report

The audit report purpose should identify the Administrative reforms which are the focus of the
audit. There have been three rounds of Administrative Reforms announced over the past five
years; Round One - June 1993, Round Two - Feb. 1995 and Round Three - Oct. 1995. Rounds
One and Two have been closed out. The Agency has focused most recently on Round Three
Administrative “common sense” Reforms which have as general goals making the Superfund
program Fairer, Faster and More Cost Effective.

                                                                              E1SFF7-01-0036-8100254
                                               31
                                                                                           APPENDIX 1

EPA response to the Results in Brief

The Region is pleased to note that the audit findings confirm our use of reforms and our
contribution to the Agency’s goals of improving equity and effectiveness in program
implementation. We have worked hard to change the way Superfund is implemented in this
Region. Independent verification of success is very important to our managers and staff.

With regard to the topic of expediting the cleanup process, the Region is concerned with the audit
finding that it took, on average, longer to cleanup sites after reforms than before the
reforms. According to Headquarters national data , the cleanup time line
(listing - construction completion) for post-reform sites is less than for sites started in the pre-
reform (before 10/95) period. Regional data for all sites shows a decrease in the time line from RI
start through construction complete.

Of more significance, however, we believe it is not appropriate to evaluate time lines at sites
where work was initiated many years prior to the reforms being announced. In our opinion, that
calculation should begin at the point in time that a particular reform was applied to a specific
cleanup phase of the sites. For example, the presumptive remedy reforms evaluation time line
should begin when this particular reform was used at a site during the RI/FS. The evaluation
should not begin at listing. Having done this, however, you will still be left with the issue of
separating out the impact of this reform in situations where additional reforms were applied to the
site during the same phase of the process. This point is further expanded upon in
Attachment I .

The audit findings confirm that the Region has succeeded in implementing reforms. The degree of
success is a reflection of the nature of each reform, site specific applicability of reforms and the
competing goals of the reforms. We do not believe that the intended benefits of all of the reforms
together can be achieved simultaneously at a particular site. Indeed, it is recognized that the goals
of one reform may conflict or compete with the goals of other reforms. As noted in the report,
community involvement and enforcement reforms may conflict with the goal of expediting the
response process at the sites you examined for that phase of the time line. In the future it will be
important to evaluate the length of time it takes from the point in time the reform is initiated at the
site to construction completion, for example, to determine overall impacts on the site cleanup
schedule. Although there are delays at some sites during application of the reform at the
particular phase of the process, future phases of cleanup may be expedited.


We recommend that the title “Region I Needs to Assess the Impact of Presumptive Remedies in
the Cleanup Process” be changed to read “ Headquarters and Region I -----“.

EPA response to Recommendations

The Regional enforcement staff have been working over the years, both internally and with
Headquarters staff, on efforts to expedite the enforcement process. We have been very active in


                                                  2



                                                  32
                                                                                         APPENDIX 1

our efforts to improve the enforcement program along the lines suggested and will continue those
efforts.

It would be helpful if you would separate out all suggestions (in the appendix) so that we could
initiate appropriate follow up.

Headquarters is planning to conduct a more in-depth analysis of the Superfund Reforms. The
analysis will attempt to measure the qualitative and quantitative impacts on the cleanup process
and Agency decision making. An examination of the recommendations regarding presumptive
remedies would be part of such an effort. We recommend that you revise your recommendation to
instruct the Office of Site Remediation & Restoration (OSRR) to develop an evaluation plan to
indicate that the plan be developed in conjunction with Headquarters efforts.


Part II - Specific comments relating to policy implications of the recommendations


OIG Report, Chapter 2, Region I Actively Implements Reforms

Recommendations - We recommend that you instruct your enforcement staff work with
Headquarter staff to determine the feasibility of implementing Regional suggestions which could
help to expedite the Superfund enforcement process.

The regional suggestions identified in the report, pages 10 & 11, are:
1) identify orphan shares as soon as possible, preferably during the RI/FS phase;
2) develop standard presumptions regarding allocations for deminimis status determinations;
3) make orphan share available to cash out situations and owners/operators and revise the
   limitations; and
4) Headquarters be more proactive as a national center for reforms implementation information.;

EPA Response: The Region has been actively involved on our own efforts, and with Headquarters
on national efforts, to improve PRP search procedures to focus attention of an allocation based
enforcement program. Regional staff were on the national workgroup and
attended the national conference held in June 1998. The Region is pursuing the PRP search
process in an effort to identify orphan share parties as soon as possible in the search process. The
intent is to do this before the RI/FS start.

The Region has worked closely with Headquarters and DOJ in efforts to streamline the allocations
process and waste volume determinations necessary to defining deminimis parties. While site
specific factors and PRP attitudes on the subject vary, we believe we have advanced our
understanding of the pros and cons of various approaches. Existing statutory language may
limit our ability to apply standard presumptions leading to deminimis status determinations.

Headquarters has responded to a range of comments from the regions, PRPs and the public to
make orphan share compensation available to cost recovery cases. The Region will take
advantage of this development in an effort to expedite cost recovery enforcement cases. The
Region and Headquarters have already worked together on ways to create innovative settlement

                                                 3

                                                33
                                                                                        APPENDIX 1

packages that go beyond the limitation of orphan share policy. These collaborative efforts will
continue.


OIG Report, Chapter 3, Region I needs to assess the impact of Presumptive Remedies on
the cleanup process

Recommendation - We recommend that the Office of Site Remediation & Restoration staff
develop an evaluation plan to determine if the use of presumptive remedies is achieving its desired
results.

EPA Response: The type of study recommended by the OIG is best done at the national level.
EPA Headquarters has the larger universe of sites needed to establish a valid data base. The
Region does not have enough sites to make this type of study meaningful.

Headquarters is currently conducting an in-depth analysis of time and cost savings estimates for
implementing the municipal landfill, VOCs in soils, wood treaters and groundwater presumptive
remedies across the country. Candidate sites have been selected and a survey instrument has been
developed and distributed. Approximately 80% of the surveys have been completed and returned
to Headquarters. Analysis of the survey data will begin as soon as possible.

Regarding municipal landfills presumptive remedies - The 18 month time period for RI/FS used by
the OIG as a basis of comparison is an Agency goal. A study of three landfills conducted by
Headquarters in 1996 used a national average of 51 months for the RI/FS. Current national data
indicate a national average of approximately 36 months. The current national average of
approximately 36 months would be a better basis for comparison of the time to complete a
presumptive remedy landfill RI/FS versus a conventional RI/FS. While we are striving for a goal,
a comparison of the processes as they actually occur in the field is more representative than
comparison to a goal.

For the nine RI/FSs in the Region using the presumptive remedy at seven sites:

* two are not yet complete so the time to complete is not known; and

* of the seven RI/FSs remaining, four took less than three years (approximately the national
average) and of these four, three took two years or less. This is good news.

For the municipal landfill sites, the OIG selected five sites for review. None of these were RI/FSs
that took two years or less, although three were available and could have been included in the
review. BFI Landfill and the Saco Landfill took approximately two years from the date of the
AOC to the start of construction of the landfill cap.

As the OIG report noted, each site has factors that may impede the streamlining of an RI/FS.
These factors may include enforcement issues or resistance from the public to streamlining the


                                                 4



                                                34
                                                                                           APPENDIX 1

site characterization for municipal landfills. These factors may be independent of the presumptive
remedy process or they may be a direct result of implementation of the process.


Part III - Specific comments regarding factual accuracy

EPA Response:

Page 3 - The first line in the section entitled “Survey Phase” would be more accurate if it were
changed to read - We evaluated five reforms utilized by Region I that were announced on Feb. 1,
1995.

Page 4 - In the first sentence of the first paragraph and again in the second sentence of the third
paragraph the word “judgmentally” is used when referring to site selection. The reader would be
better informed if the report included a listing of criteria or factors which influenced your opinion
and judgement.

Page 8 - In the second and third lines of the second paragraph it would be more accurate if the
text were changed to read - specific national guidance.

Page 8 - The OIG comments relative to updating remedies indicate that there is a lack of regional
consistency in how savings were calculated. Each remedy may vary slightly in the method used to
calculate savings due to differences in the nature of the site and remedy. However, each cost
saving calculation was consistent to the extent it included an estimate of construction costs
(capital costs) saved and Operation and Maintenance (O&M) cost savings in accordance with
national guidance. Also, EPA national guidance indicates that the accuracy of remedial action
cost estimates in the FS are anticipated to be no better than +50/-30.

Page 11 - The OIG report heading at the bottom left of the page would be more accurate if
changed to read - Community Involvement Reforms Can Delay Cleanup, But Can Reduce Costs,
Increase Buy-In and Save Time of the Life of the Project. The text for this section would be
more accurate if the phrase in line two “increased time spent” were changed to acknowledge that
initial time spent in creating community buy-in could ultimately result in an overall time saving for
the cleanup project.

Page 12 - The line after the indented quote - The report would better inform the reader if it
indicated who established the measures noted as items 1,2 & 3 and who did the measuring. In
particular, the source of measurement item 3 should be identified.

Page 12 - The last sentence in the second full paragraph would be more accurate if changed to
read - If EPA adopts this remedy, the PRPs voluntarily agree to contribute another $3 million for
environmental projects selected by the community.

Page 12 - The first sentence in the last paragraph would be more accurate if changed to read -


                                                  5



                                                 35
                                                                                        APPENDIX 1

Although negotiations with the community council took five years, existing conditions at the site
did not pose an unacceptable human health risk.

 Page 12 - The last paragraph would be more accurate if an additional sentence were inserted after
“into the air”. The new sentence would read - And, the State of Vermont prohibits the use of
contaminated groundwater beneath the site for drinking water.

Page 12 - The sense of the paragraph would be more accurate if the sentences beginning “ In
1993" and “Finally an October 1994" were deleted and a new final sentence inserted. The new
final sentence would read - The remedy proposed for the site will address the existing ecological
risk and potential human health risks.

Page 13 - Text under the heading of “Reforms Did Not Speed Up Construction Completions”
would inform the reader better if it noted that measuring the cleanup time from the time of listing
includes for many, if not most, sites a significant amount of time prior to the announcement of
Superfund reforms. Time lines noted in the text of “seven years and two months” and “nine years
and eleven months” don’t seem illustrative of the point of the audit when compared to the fact
that reforms were announced in 1993 (five years ago) or 1995 (three years ago). Evaluating
performance from the time of site listing has the effect of holding the program responsible for
achieving goals of reforms prior to the announcement of the reforms.

Page 14 - “in the already” should be changed to read - already in the.

Page 17 - Regarding the word “judgmentally”. Refer to our previous comments concerning use
of “judgmentally”.

Page 19 - Regarding benefits and the uncertainty of RI/FS time and money saved through use of
presumptive remedies - The report should acknowledge that at PRP lead sites only the PRP, not
EPA, could quantify the cost savings.

Page 22 - First full paragraph - As noted previously (see comments above re: Page 8) the Region
consistently used capital costs and O&M costs in evaluating savings. The text should be revised to
note the response.


Part IV - Comments on the request for a Plan for Taking Corrective Action

EPA response - We would like to discuss the appropriate follow-up at our September 23, 1998
meeting. As a result of that meeting we may want to revise our earlier comments on the
Executive Summary recommendations.

Headquarters provided the Region with comments on various topics in the OIG draft report.
Those comments have been included as Attachment I.


                                                 6




                                                36
                                                                                   APPENDIX 1


If you have any questions contact George Mollineaux, Region I - Audit Coordinator
(617) 565 - 3329 or Dennis Huebner, Office of Site Remediation & Restoration, Associate
Director for Management (617) 918-1203.

Attachment




                                             7



                                             37
[This page intentionally left blank]




                38
                                                                                    Region 1's Superfund
                                                                                  Administrative Reforms




                                   APPENDIX 2
                     HEADQUARTERS COMMENTS
                                                                    Attachment I


9/15/98
           COMMENTS ON DRAFT OIG AUDIT OF REGION 1's REFORMS


14.   Page i - Results in Brief - the report states that Region 1 sites took 7 years 2 months to reach
      construction completion prior to the reforms, and 9 years 11 months after the reforms.

      Comment: The first round of reforms was announced in June 1993, so it is impossible for
      sites begun after the reforms were initiated to average 10 years in duration. The report’s
      analysis has apparently categorized sites according to completion dates rather than start
      dates. This causes four significant problems.

      First, the lengthening of the time frames probably has more to do with program maturity than
      anything else. The Superfund program was only twelve years old in June 1993, so the
      average time to reach construction completion by 1993 would have to be significantly less
      than twelve years. In 1998 the program was 17 years old, so the average age could be
      longer. In addition, many of the worst sites, sites where work began during the first years of
      the program, have been completed recently. These factors neither owe anything to, nor are
      likely to be affected by, the administrative reforms. If any programmatic adjustment affected
      these sites it is more likely to have been the Enforcement First initiative shifted the focus
      away from Fund financed cleanup and onto efforts the get the PRPs to do the work. The
      cleanup negotiations that were required as part of that initiative may explain the longer
      durations noted by this report. Prior to the Enforcement First initiative, only 35% of
      cleanups were conducted by PRPs. After the initiative took effect the PRP involvement
      climbed to over 70%, with half of those were achieved only after the very involved process of
      negotiating a Consent Decree.

      Second, none of the reforms apply to the entire response pipeline, so it is doubtful that their
      impact can be adequately evaluated by looking at the time it takes to go from NPL listing to
      construction completion. Each of the reforms was designed to addresses a different aspect of
      the process. As a result, their impact of any particular reform is going to be most visible
      when you focus on that aspect.

      Third, the first round of reforms was announced in June 1993, the second in February 1995,
      the third in October 1995. In each case, the reforms went into full effect in the ensuing fiscal
      year (FY94, FY96 and FY96 respectively). Yet the report faults the reforms for not
      accelerating the pace of cleanup at sites where work had been underway for an average of
      almost 8 years prior to the reforms.

                                                 1


                                                                                 E1SFF7-01-0036-8100254
                                                 39
                                                                                          APPENDIX 2

      Lastly, a difficulty that is not addressed in the report is how the analysis accounted for
      meaningful differences among sites. For example:
      1.      what was the impact of activist citizen groups or law suits;
      2.      was there a higher level of political interest at some sites, such as where there was a
              potential for lost jobs, that required more negotiation or a different remedy;
      3.      what is the effect of site size, remedy selection, and complexity on the length of time
              to reach construction completion;
      4.      did the number of operable units affect the amount of time required; and
      5.      were any of the sites affected by a failed remedy?
      It would be very difficult to draw meaningful comparisons about cost or duration without
      taking these, and many other factors that are beyond EPA’s control, into account.

15.   Page ii - Based on our review , we believe the goal to expedite the cleanup process has not
      been achieved. The regions can provide. . . suggestions to further improve the goals of
      providing a faster, fairer and more effective Superfund program.

      Comment: Two issues. The first sentence addresses the net effect of the “faster” goal and
      ignores the expected countervailing effects of the “fairer” and “more effective” goals. The
      reforms have overlapped, so any analysis would have to address the net effect of all three
      simultaneously, or focus on sites that employed reforms supporting only one. The second
      sentence addresses all three reform areas, but seems to say that the region can suggest
      improvements to the goals. Was the intent to say that the regions can suggest ways to
      improve performance against the goals?

      Expanding on what was said in Comment 1, it is simply too early to see the impact of the
      reforms on construction completions. Most of the reforms address the early stages of the
      response and enforcement effort. Any impact the speed of cleanup that would be visible
      today would be seen in the time required for discreet segments of the process. The recent IG
      review of the time required for RD/RA negotiations is an example of a well targeted analysis.

16.   Page ii - enforcement reforms in particular required greater (more?) detailed information and
      documentation, thus increasing the amount of time a site spent in the pipeline. Based on
      experience, regional enforcement staff provided suggestions to prevent delays in
      implementing enforcement reforms.

      Comments:
      a.   This conclusion does not appear to be supported by the analysis presented in the
           report.
      b.   Replace “Based on experience, regional enforcement staff provided suggestions to
           prevent delays in implementing enforcement reforms.” with “Based on their
           experience, regional enforcement staff provided suggestions that could prevent the
           enforcement reforms from slowing the pace of cleanup at individual sites.”


                                                 2




                                                 40
                                                                                             APPENDIX 2

     c.      An important point that is overlooked in the report is the effect of PRP lead responses
             on the overall pace of cleanup (as opposed to the time required to complete an
             individual site). If the Trustfund suddenly had to pay for the responses currently
             performed by PRPs, one of two things would have to happen. Either the pace of
             cleanup would fall by 2/3rds, or the Superfund budget would have to triple. For this
             reason, reforms that cause small to moderate delays at some individual sites are a
             good trade-off if they encourage PRPs to continue taking responsibility for cleanups.

4.   Page iii - “...it is difficult to identify why the time savings were not realized...”

     Comment: As noted above, the report focuses on the “faster” goal and finds that the goal was
     not attained, but neglects the possibility that simultaneous efforts to meet the other goals
     tended to extend the time required. In essence, the question should be whether or not the
     trade-off is real. Stated another way, would use of the “fairer” and “more effective” reforms
     have extended the time frames even further without the “faster” reforms?

5.   Page iii - “...Regional recommendation which could help to expedite the Superfund
     enforcement process.”

     Comment: Please itemize these recommendations somewhere in the report.

6.   Page 1 - Purpose

     Comment: replace “...criticized as being too expensive and taking too long.” with
     “...criticized as being unfair, too expensive and taking too long.”

7.   Pg. 2, last paragraph in “Background” section -

     Comment: replace “Region 1 outlined five Superfund initiatives on Feb. 21, 1995. The goals
     of these initiatives were to promote faster cleanups and quicker, fairer settlements.” with
     “Region 1 decided to use five of the Superfund initiatives on Feb. 21, 1995. The goals of
     these initiatives were to promote faster cleanups and quicker, fairer settlements.”

8.   Page 3 - On the list of reforms

     Comment: replace “Small Parties” with “Expedited De Minimis Settlements”
     Comment: Where iss “Alternatives to Superfund Listing” addressed in the analysis

9.   Page 3 - Interviewed Regional Project Mangers

     Comment: should this be Remedial Project Mangers?

                                                   3




                                                  41
                                                                                         APPENDIX 2

10.   Page 4 - “Finally, we judgmentally reviewed five Superfund sites which used round one
      reforms...”

      Comment: The word judgmentally is used several times throughout the report. What does it
      mean?

11.   Page 4 - “To determine if region 1 had been consistently implementing reforms where
      appropriate, we judgmentally selected five sites in which we had no indication of reforms
      being used, and four municipal landfills.”

      Comments:
      a.   Again, what does judgmentally mean as used here
      b.   Is this the same group of five sites listed in the previous section. If not please provide
           a list. If it is, please explain how they could “use round one reforms” in the first
           instance and have “no indication of reforms” in the second.
      c.   Please mention briefly that the assessment consisted of interviews to see what
           rationale the RPMs offered for not using the reforms.

12.   Page 4 - “To determine if presumptive remedies expedited the cleanup process, we analyzed
      and reviewed ROD information, and fact sheets form the EPA Superfund Records Center,
      and CERCLIS data pertaining to the site. We interviewed RPMs to determine why the RI/FS
      took longer than 18 months”

      Comments:
      a.   What sites were evaluated? Was this the same 5 sites as above, or was it all sites at
           which the presumptive remedies reform was applied?
      a.   What reasons were offered and is the additional time reasonable in light of the reason
           given?
      b.   How many RI/FSs were in the sample, and how many of them were initiated after the
           reform? Was the evaluation of the reform limited to those RI/FSs that were started
           after the reform?

13.   Page 4 - “To determine how enforcement reforms impacted the time a site spends in the
      Superfund process, we interviewed Regional as well as Headquarters staff and reviewed the
      OIG Headquarters Audit Division (HAD) memorandum on the Remedial Design/Remedial
      Action (RD/RA) (Report No. 8400015).”

      Comment: It appears that this portion of the analysis was principally a gathering of staff
      impressions and did not look at data for specific sites. Is that correct?

14.   Page 5 - “Finally, we compared the three rounds of reforms to CERCLA to determine if the
      reforms significantly deviated from current law. From this review, we determined that 13 of
      49 reforms closely mirrored the language of the existing law. Further, we reviewed and
      compared the definition and goal of the reforms to the applicable sections of CERCLA.”

                                                 4




                                                42
                                                                                           APPENDIX 2

      Comments:
      a.   Does this imply that the other 36 reforms that do not “closely mirror” the existing
           law?
      b.   Please state the purpose of comparing any of the reforms to the existing law.
      c.   EPA crafted all of the reforms within its interpretation of the applicable laws, that is
           why they are called Administrative Reforms. EPA is not allowed to operate outside
           of its enabling legislation.

15.   Page 7 - “However, while reforms may have improved equity or Agency processes, reforms
      did not appear to expedite the Superfund process in general. In fact some reforms added
      time to the process.”

      Comment: Please replace with “However, while reforms may have improved equity or
      Agency processes, increased fairness, and saved costs, reforms did not appear to expedite
      the Superfund process in general. In fact some reforms added time to the process.”

16.   Page 7 - Updated Remedy - “...the goal of this initiative was to encourage Regions to
      systematically identify and revisit remedy decisions at sites where significant new scientific
      information would achieve the current level of environmental protection...”

      Comment: replace with “...the goal of this initiative was to encourage Regions to
      systematically identify and revisit remedy decisions at sites where significant new scientific
      information suggested new technologies or techniques that would achieve the same level
      of environmental protection...”

17.   Page 8 - De Minimis Enforcement

      Comments
      a.   In the first sentence, replace “de minimis” with “expedited de minimis settlements”
      b.   In the second sentence, replace “Director of the Policy and Program Evaluation
           Division, Office of Site Remediation (OSRE)” with “Headquarters”
      c.   In the second paragraph replace “immaterial” with “minimal”
      d.   In the third paragraph, replace “The Director of the Policy and Program Evaluation
           Division, OSRE, OECA” with “Headquarters”
      e.   In the fifth paragraph, replace “larger PRP groups” with “PRPs with a larger
           involvement at the site”
      f.   In the fifth paragraph, replace “the price to settle” with “the price of de minimis
           settlement”
      g.   In the sixth paragraph, replace “a small number of PRP are involved” with “the PRPs
           are cooperative, or there are not too many involved”
      h.   In the sixth paragraph, please clarify what is meant by “deadlines required by law are
           impossible to meet...” There are no deadlines for de minimis. If the reference is to

                                                  5




                                                 43
                                                                                         APPENDIX 2

             the RD/RA 120 day negotiation deadline in the statue, this discussion should be
             moved to the “RD/RA Neg.” section on pg. 11.

18.   Pg. 10 - Regarding the discussion on allocations

      Comment: The discussion of allocations is somewhat misleading. First, because it is located
      in the de minimis section, it creates the impression that allocations are limited to de minimis
      situations, which is untrue. Second, the presentation also creates the impression that
      allocations are stalling many projects and that Superfund has overlooked problems related to
      them. The report needs to balance the presentation by noting that:
      a.      There are only 9 allocation pilots nationwide, and only one of these pilots is in Region
              1 (Old Southington Landfill, CT).
      b.      Allocation Pilots were designed as a test of specific proposed statutory language (in
              the Superfund Reauthorization Act) to see how well it could, or could not, be
              implemented. Superfund has already discussed the shortcomings of the SRA
              allocation process in several Reforms End of Year Reports.
      c.      Superfund is not endorsing the SRA allocation pilot process for all sites.

19.   Pg. 10 - “...some other suggestions offered by the Regional enforcement staff to
      Headquarters included: 1) making orphan share available to cash out situations and
      owners/operators, at least in some situations...”

      Comments: This suggestion would require careful evaluation.
      a.   Regarding cash out parties - the principal goal of this reform was to increase the
           fairness to the parties performing the cleanups. See the preceding discussion
           regarding the effects of losing PRP response actions. Cash out parties do not perform
           cleanups and are actually charged a premium. The premium compensates for the fact
           that cash out parties settle early and the final cost of the cleanup could be
           considerably higher than the estimates used to calculate their liability . De Minimis
           parties are already benefitting from the orphan share reform. The question is whether
           including the other cashout would have a negative effect on the fairness as perceived
           by the settling PRPs.
      b.   Regarding owner/operators - the SRA and other draft bills on the Hill all stated that
           owner/operators should not benefit from orphan share for various reasons (past
           owner/operators profited from what occurred at the site current owner/operators get
           benefits after site is cleaned up; future owner/operators should be aware of what they
           are getting into and not turn a blind eye, generators/transporters did not have control
           of waste after it got to the owner/operator site...etc.). Implementing this suggestion
           would conflict with the direction we have received from Congress on this issue.


                                                 6




                                                44
                                                                                     APPENDIX 2

20.   Page 11 - RD/RA Negotiations

      Comment: This segment discusses a previous OIG report, and notes that RD/RA negotiations
      took longer in the period after the reforms were implemented without actually stating how
      much longer the negotiations took or the conclusions of the cited report.

21.   Page 11 - Community Involvement -

      Comments:
      a.   First paragraph - Replace “The Agency believed early community involvement
           increased equity of the Superfund program as it related to the people immediately
           impacted by the site. In this way, revisions and amendments to the ROD would not
           be needed.” with “The Agency believed early community involvement increased the
           equity of the Superfund program as it related to the people immediately impacted by
           the site, and the additional early involvement of the community would reduce
           the number of ROD revisions and amendments needed.”
      b.   Fourth paragraph - Replace “Although additional time was needed at two Regional
           sites, benefits of reduced costs and community buy in were derived.” with “At two
           Regional sites, some additional time was needed, but overall costs were reduced and
           the community seemed to be more satisfied that their interests were being protected.”




                                               7



                                              45
                                                                                        APPENDIX 2

      c.     Fourth paragraph - replace “At the Pine Street Barge Canal site, Region 1 presented a
             plan in1992 calling for a $50 million remedy at the site. Since the plan met strong
             opposition...” with “In 1992, Region 1 presented a plan calling for a $50 million
             remedy at the Pine Street Barge Canal site. When the plan met strong opposition...”
      d.     Fifth paragraph - replace “Although negotiations with the community council took
             five years, there did not appear to be any human health risk during that time.” with
             “Although negotiations with the community council took five years, there did not
             appear to be an increased human health risk during that time.”

22.   Page 13 - Reforms Did Not Speed Up Construction Completions

      Comments:
      a.   As noted earlier, not all of the reforms were intended to speed up the process. The
           title of this section should be revised to avoid creating the impression that hastening
           the construction process was the sole objective of the reforms.
      b.   First paragraph - replace “While use of Superfund reforms improved program equity
           and effectiveness, use did not expedite the time a site progressed from listing on the
           NPL to construction completion.” with “The Superfund reforms improved program
           equity and effectiveness. It is unclear whether the reforms have reduced the time
           required for a site to progress from NPL listing to construction completion.”
      c.   First paragraph - what group of 26 sites dose this refer to? What was the basis for
           their selection?
      d.   First paragraph - as noted earlier, the analysis in the paragraph is badly flawed. It
           attempts to gauge the reforms by the amount of time it took a group of sites that
           entered the pipeline 6-8 years before the reforms to reach construction completion. A
           meaningful analysis of the reforms must look at those pipeline stages that were the
           target of a reform AND were begun after the reform took effect. See note 22.
      e.   First paragraph - the previous note not withstanding, most readers would get more
           out of this discussion if it simply stated the average time required for sites in each of
           the two groups.
      f.   First paragraph - as noted earlier, to be meaningful this analysis must make an effort
           to recognize the myriad external factors (i.e., not under EPA’s control) that can affect
           the duration of the response
      g.   Table - a footnote in the table indicates that there was only one FY 1998 construction
           completion at the end of the field work for the report. FY 1998 is now complete, so
           it would be reasonable to update this simple piece of data.
      h.   Second paragraph - replace “There were seven construction completions in federal
           fiscal year 1997, an increase from the previous three years when only two sites per
           Federal fiscal year were completed.” with “There were seven construction
           completions in FY 1997, compared to two construction completions in each of the
           the three previous years.”


                                                8




                                                46
                                                                                       APPENDIX 2

      i.     Page 14 - end of the paragraph completing the prior discussion - This segment
             acknowledges that the reforms had little if anything to do with the time required to
             achieve the FY 1998 construction completions, and that those sites had been in the
             pipeline for an extended time prior to the reforms. This being the case, why is there
             an entire chapter devoted to the fact that the reforms have not had an impact on the
             time required to clean-up a site?
      j.     Conclusion - replace the entire conclusion with the following - “The Region actively
             implemented the reforms it chose to use. These reforms saved money and improved
             the equity of the Superfund process. However, as of the date of this audit, we were
             unable to determine whether or not the reforms had had an effect on the time required
             for cleanup. Although there were significantly more construction completions in FY
             1997 and FY 1998 than in previous years, the response efforts at these sites were
             already in advanced stages when the reforms went into effect. As a result, it is
             unlikely that the reforms could have had a significant impact on the time required t
             complete these sites. Nonetheless, it does appear that enforcement reforms have the
             potential to delay the cleanup process, and Superfund should monitor this issue to
             ensure that they are satisfied with the trade-off.”
      k.     Conclusion - the comment about regional suggestions is omitted from the suggested
             conclusion, above, because they have been addressed previously.
      l.     Recommendations - replace “We recommend that you instruct your enforcement staff
             work with Headquarters staff to determine the feasibility of implementing Regional
             suggestions which could help to expedite the Superfund enforcement process.” with
             “We recommend that you instruct the regional enforcement staff to work with
             Headquarters to identify alternatives that would support the enforcement goals,
             increasing fairness and maintaining a high level of PRP lead response work, while at
             the same time minimizing the possibility that the pace of individual cleanups might be
             slowed. We recognize, however, that most of the cleanup work is being performed
             by PRPs, and that maintaining a high level of PRP involvement is critically
             important.”

23.   Page 17 - RI/FS Took Longer than Agency Goal

      Comments:
      a.   Retitle the section “RI/FS Completion is Quicker than before, but not as quick as had
           been hoped.”
      b.   As suggested above with respect to construction completions, it would be more
           useful to simply state the average time required to complete the RI/FSs. From the
           data it appears that the durations have gotten shorter, but not as short as hoped..



                                               9




                                               47
                                                                                          APPENDIX 2

24.   Page 17 - Municipal Landfill RI/FS Not Expedited

      Comments:
      a.   Second paragraph - again, what does judgmentally mean?
      b.   Second and Third paragraphs - it would be more meaningful to most readers if you
           state the average RI/FS duration for the group, and how it compares to the durations
           of similar sites at which the presumptive remedies were not used.

25.   Page 19 - Benefits from Use of Presumptive Remedies

      Comment: Although we agree with the concept, given the degree of uniqueness of sites and
      remedies, it seems unlikely that there is a cost effective way to estimate the cost and time
      savings from using presumptive remedies. The simplest method would be to perform the
      RI/FS twice (with and without the presumptive remedy) and compare the costs and time
      required. But that would defeat the purpose. Another alternative is to use raw averages
      from groups of sites, but that ignores the impact of external factors which frequently drive
      both costs and time (see the partial list offered at the end of comment 1).

26.   Page. 21 - Measuring Reforms - second paragraph - “The Regional staff also believed that
      since two years had passed, it was an excellent time for Headquarters to reassess the value of
      the reforms and determine if the reforms were going in the right direction.”

      Comment: In a November, 1997, memo entitled “FY98 Reforms Strategy” we did revisit the
      reforms and highlighted how they could be measured. We also prepare and annual public
      report showing the benefits/measures of 45 round 2 and 3 reforms. It is possible that the
      Regional staff interviewed are not aware of these assessments.

27.   Page 22 - Reforms Were Interpretations of Existing Law -

      Comments: As noted previously, this comment seems to imply that 36 of the 49 reforms have
      no basis in law. If that is the intent of the report it should be stated explicitly and supported
      with facts and interpretations that can be reviewed. The simple fact is that EPA believes that
      all of the reforms have a basis in law, which is why they are called “Administrative Reforms.”
      EPA does not have the authority to operate outside of its enabling legislation.




                                                 10




                                                 48
                                                                                  Region 1's Superfund
                                                                                Administrative Reforms




                                      APPENDIX 3
                                       DISTRIBUTION
Headquarters

Office of Inspector General - Headquarters (2421)
Agency Audit Follow-up Coordinator (3304)
Agency Audit Follow-up Official (3101)
Assistant Administrator for Solid Waste and Emergency Response (5101)
Director, Office of Emergency and Remedial Response (5201G)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Director, Policy and Program Evaluation Division, Office of Enforcement and Compliance
 Assurance, Office of Site Remediation Enforcement (2273A)
Associate Administrator for Congressional & Legislative Affairs (1301)
Associate Administrator for Communications, Education & Public Affairs (1701)
EPA Library (3403)

Region 1

Regional Administrator
Office of Environmental Stewardship
Office of Site Remediation & Restoration
Audit Coordinator

Other

Office of Inspector General - Divisional Audit Offices




                                                                              E1SFF7-01-0036-8100254
                                                   49
